        DEPARTMENT OF HEALTH &. HU MAN SERVICES 	                                  Office of Inspector General


                                                                                   Washington, D.C. 20201


                                           AUG 1 4 200Q 





TO: 	           Charlene Frizzera
                Acting Administrator
                Centers for Medicare & Medicaid Services

                     /S/
FROM:           Stuart Wright
                Deputy Inspector General
                   for Evaluation and Inspections


SUBJECT: 	 Memorandum Report: "Comparison of First-Quarter 2009 Average Sales Prices
           and Average Manufacturer Prices: Impact on Medicare Reimbursement for Third
           Quarter 2009," OEI-03-09-00490


This review was conducted in accordance with the congressional mandate for the Office of
Inspector General (OIG) to review average sales prices (ASP) and average manufacturer prices
(AMP) for Medicare Part B prescription drugs and identify ASPs that exceed AMPs by at least
5 percent. The review also determined the impact of lowering reimbursement amounts for drugs
that meet the 5-percent threshold.

Since the advent of the ASP reimbursement methodology in 2005, OIG has issued 12 reports
comparing ASPs to AMPs. This latest pricing comparison examines drugs that met the 5-percent
threshold based on either complete or partial AMP data in the first quarter of 2009. Of the
360 drugs with complete AMP data in that quarter, 14 met the 5-percent threshold. Eleven of
these fourteen drugs were also eligible for price adjustments in 2008, with two drugs meeting the
5-percent threshold throughout that entire year. If reimbursement amounts for all 14 drugs had
been based on 103 percent of the AMPs, we estimate that Medicare expenditures would have
been reduced by almost $1 million in the third quarter of 2009. Of the 93 drugs with only partial
AMP data in the first quarter of 2009, 9 had ASPs that exceeded the AMPs by at least 5 percent.
All nine of these drugs previously met the 5-percent threshold in at least one quarter of2008.
We estimate that Medicare expenditures would have been reduced by $2.8 million during the
third quarter of 2009 if reimbursement amounts for all nine drugs had been based on 103 percent
of the AMPs. We could not perform pricing comparisons for an additional 61 drugs because
none of the drug products used to establish Medicare reimbursement had corresponding AMP
data. Manufacturers for almost one-fifth of those drug products had Medicaid drug rebate
agreements and were therefore generally required to submit AMPs. OIG will continue to work
with the Centers for Medicare & Medicaid Services (CMS) to evaluate and pursue appropriate
actions against those manufacturers that fail to submit required data.




OEI-03-09-00490 	                               Comparison of First-Quarter 2009 ASPs and AMPs
Page 2 – Charlene Frizzera


BACKGROUND

Section 1847A(d)(2)(B) of the Social Security Act (the Act) mandates that OIG compare ASPs
to AMPs. If OIG finds that the ASP for a drug exceeds the AMP by a certain percentage
(currently 5 percent), section 1847A(d)(3)(A) of the Act states that the Secretary of the
Department of Health and Human Services (the Secretary) may disregard the ASP for the drug
when setting reimbursement amounts. 1 Section 1847A(d)(3)(C) of the Act goes on to state that
“. . . the Inspector General shall inform the Secretary (at such times as the Secretary may specify
to carry out this subparagraph) and the Secretary shall, effective as of the next quarter, substitute
for the amount of payment . . . the lesser of (i) the widely available market price . . . (if any); or
(ii) 103 percent of the average manufacturer price . . . .”

Medicare Part B Coverage of Prescription Drugs
Medicare Part B covers only a limited number of outpatient prescription drugs. Covered drugs
include injectable drugs administered by a physician; certain self-administered drugs, such as
oral anticancer drugs and immunosuppressive drugs; drugs used in conjunction with durable
medical equipment; and some vaccines.

Medicare Part B Payments for Prescription Drugs
CMS contracts with private companies, known as Medicare Administrative Contractors (MAC),
to process and pay Medicare Part B claims, including those for prescription drugs. To obtain
reimbursement for covered outpatient prescription drugs, health care providers submit claims to
their MACs using procedure codes. CMS established the Healthcare Common Procedure
Coding System (HCPCS) to provide a standardized coding system for describing the specific
items and services provided in the delivery of health care. In the case of prescription drugs, each
HCPCS code defines the drug name and dosage size but does not specify manufacturer or
package size information.

Medicare and its beneficiaries spent over $11 billion for Part B drugs in 2008. 2 Although
Medicare paid for more than 700 outpatient prescription drug HCPCS codes that year, most of
the spending for Part B drugs was concentrated on a relatively small subset of those codes. In
2008, 60 codes accounted for 90 percent of the expenditures for Part B drugs, with only 12 of
these drugs representing half of the total Part B drug expenditures.

Reimbursement Methodology for Part B Drugs and Biologicals
Since January 2005, Medicare Part B has been paying for most covered drugs using a
reimbursement methodology based on ASPs. 3 Section 1847A(c) of the Act, as added by the
Medicare Prescription Drug, Improvement, and Modernization Act of 2003, P.L. No. 108-173,

1
  Section 1847A(d)(3)(B)(ii) of the Act provides the Secretary with authority to adjust the applicable threshold
percentage in 2006 and subsequent years; however, the threshold percentage has been maintained at 5 percent.
2
  Medicare expenditures for Part B drugs in 2008 were calculated using CMS’s Part B Analytics and Reports
(PBAR). PBAR data were downloaded on July 8, 2009.
3
  Several Part B drugs, including certain vaccines and blood products, are not paid under the ASP methodology.



OEI-03-09-00490                                     Comparison of First-Quarter 2009 ASPs and AMPs
Page 3 – Charlene Frizzera


defines an ASP as a manufacturer’s sales of a drug to all purchasers in the United States in a
calendar quarter divided by the total number of units of the drug sold by the manufacturer in that
same quarter. The ASP is net of any price concessions, such as volume discounts, prompt pay
discounts, cash discounts, free goods contingent on purchase requirements, chargebacks, and
rebates other than those obtained through the Medicaid drug rebate program. 4 Sales that are
nominal in amount are exempted from the ASP calculation, as are sales excluded from the
determination of “best price” in the Medicaid drug rebate program. 5 6

Manufacturers report ASPs by national drug codes (NDC), which are 11-digit identifiers that
indicate the manufacturer, product dosage form, and package size of the drug. Manufacturers
must provide CMS with the ASP and volume of sales for each NDC on a quarterly basis, with
submissions due 30 days after the close of each quarter. 7

Because Medicare Part B reimbursement for outpatient drugs is based on HCPCS codes rather
than NDCs and more than one NDC may meet the definition of a particular HCPCS code, CMS
has developed a file that “crosswalks” manufacturers’ NDCs to HCPCS codes. CMS uses
information in this crosswalk file to calculate volume-weighted ASPs for covered HCPCS codes.

Calculation of Volume-Weighted Average Sales Prices
Third-quarter 2009 Medicare payments for most covered drug codes were based on
first-quarter 2009 ASP submissions from manufacturers, which were volume-weighted using an
equation that involves the following variables: the ASP for the 11-digit NDC as reported by the
manufacturer, the volume of sales for the NDC as reported by the manufacturer, and the number
of billing units in the NDC as determined by CMS. 8 The amount of the drug contained in an
NDC may differ from the amount of the drug specified by the HCPCS code that providers use to
bill Medicare. Therefore, the number of billing units in an NDC describes the number of
HCPCS code units that are in that NDC. For instance, an NDC may contain a total of
10 milliliters of Drug A, but the corresponding HCPCS code may be defined as only 5 milliliters
of Drug A. In this case, there are two billing units in the NDC. CMS calculates the number of
billing units in each NDC when developing its crosswalk files.

Under the ASP pricing methodology, the Medicare allowance for most Part B drugs is equal to
106 percent of the volume-weighted ASP for the HCPCS code. Medicare beneficiaries are
responsible for 20 percent of this amount in the form of coinsurance.


4
  Section 1847A(c)(3) of the Act.
5
  Pursuant to section 1927(c)(1)(C)(i) of the Act, “best price” is the lowest price available from the manufacturer
during the rebate period to any wholesaler, retailer, provider, health maintenance organization, nonprofit entity, or
governmental entity within the United States, with certain exceptions.
6
  Section 1847A(c)(2) of the Act.
7
  Section 1927(b)(3) of the Act.
8
  The equation that CMS currently uses to calculate volume-weighted ASPs is described in section 1847A(b)(6) of
the Act. It is also provided in Appendix A.




OEI-03-09-00490                                      Comparison of First-Quarter 2009 ASPs and AMPs
Page 4 – Charlene Frizzera


The Medicaid Drug Rebate Program and Average Manufacturer Prices
For Federal payment to be available for covered outpatient drugs provided under Medicaid,
sections 1927(a)(1) and (b)(1) of the Act mandate that drug manufacturers enter into rebate
agreements with the Secretary and pay quarterly rebates to State Medicaid agencies. Under these
rebate agreements and pursuant to section 1927(b)(3) of the Act, manufacturers must provide
CMS with the AMP for each of their NDCs on a quarterly basis, with submissions due 30 days
after the close of each quarter. 9

As generally defined in section 1927(k)(1) of the Act, the AMP is the average price paid to the
manufacturer for the drug in the United States by wholesalers for drugs distributed to the retail
pharmacy class of trade. Before the passage of the DRA, manufacturers were required to deduct
customary prompt pay discounts when calculating AMPs. However, section 6001(c)(1) of the
DRA amended section 1927(k)(1) of the Act, such that AMPs must be determined without
regard to customary prompt pay discounts, effective January 2007. 10 In July 2007, CMS
published a final rule at 72 Fed. Reg. 39142 (July 17, 2007) that, among other things,
implements section 6001(c)(1) of the DRA and clarifies the way in which the AMP must be
calculated. Specifically, 42 CFR § 447.504 of the final regulation clarifies the manner in which
the AMP is to be determined. 11

The AMP is generally calculated as a weighted average of prices for all of a manufacturer’s
package sizes of a drug sold during a given quarter and is reported for the lowest identifiable
quantity of the drug (e.g., 1 milliliter, 1 tablet, 1 capsule).

If a manufacturer fails to provide AMP data in a timely manner, civil monetary penalties may be
imposed. 12 In addition, pursuant to section 1927(b)(4)(B) of the Act, the Secretary may
terminate a rebate agreement “for violation of the requirements of the agreement or other good
cause shown.” CMS has terminated rebate agreements with a number of manufacturers for
failure to report drug-pricing data as required by section 1927 of the Act. For the purposes of
evaluating potential civil monetary penalty actions, CMS has also provided OIG with
information about manufacturers that failed to submit drug pricing data.




9
  Section 6001(b)(1)(A) of the Deficit Reduction Act of 2005 (DRA), P.L. No. 109-171, changed section 1927(b) of
the Act to require that manufacturers also report AMPs on a monthly basis, effective January 2007. Drug
manufacturers will continue to report quarterly AMP data in addition to their monthly submissions.
10
   CMS’s “Bulletin for Participating Drug Manufacturers,” Release No. 76 (December 15, 2006), instructed
manufacturers to exclude customary prompt pay discounts from their AMP calculations as of January 2007.
11
   In December 2007, the U.S. district court for the District of Columbia preliminarily enjoined the implementation
of the regulation for certain purposes not relevant to this report. Section 203 of the Medicare Improvements for
Patients and Providers Act of 2008 also delayed the implementation of certain aspects of the regulation and the DRA
requirements. Again, those aspects are not relevant for the purposes of this report.
12
   Pursuant to section 1927(b)(3)(C) of the Act.



OEI-03-09-00490                                    Comparison of First-Quarter 2009 ASPs and AMPs
Page 5 – Charlene Frizzera


Office of Inspector General’s Monitoring of Average Sales Prices and Average
Manufacturer Prices
In accordance with its congressional mandate, OIG has issued 11 quarterly pricing comparisons
since the ASP reimbursement methodology for Part B drugs was implemented in January 2005.
In addition, OIG completed an annual overview of ASPs and AMPs, which examined data across
all four quarters of 2007. 13 A list of all 12 reports is provided in Appendix B.

Although CMS has acknowledged the Secretary’s authority to adjust ASP payment limits based
on the findings of OIG’s pricing comparisons, CMS has yet to make any changes to Part B drug
reimbursement as a result of these studies. Rather, CMS has emphasized both the complexity of
substituting payment amounts and the importance of proceeding cautiously to avoid unintended
consequences. 14 In commenting on OIG’s reports, CMS has expressed a desire to both better
understand fluctuating differences between ASPs and AMPs and engage stakeholders, with the
intent of developing a process for making price substitutions. 15 However, CMS has not specified
what, if any, steps it will take to adjust Medicare reimbursement amounts for drugs that meet the
5-percent threshold specified in section 1847A(d)(3) of the Act.

OIG will continue to meet its congressional mandate by issuing reports based on quarterly
pricing comparisons, along with annual overviews to summarize findings across each calendar
year.

METHODOLOGY

We obtained a file from CMS containing NDC-level ASP data from the first quarter of 2009,
which were used to establish Part B drug reimbursement amounts for the third quarter of 2009.
This file also includes information that crosswalks NDCs to their corresponding HCPCS codes.
Both the ASP data and the crosswalk data were current as of June 24, 2009. We also obtained
AMP data from CMS for the first quarter of 2009, which were current as of May 8, 2009.

Analysis of Average Sales Price Data From the First Quarter of 2009
As mentioned previously, Medicare does not base reimbursement for covered drugs on NDCs;
instead, it uses HCPCS codes. Therefore, CMS uses ASP information submitted by
manufacturers for each NDC to calculate a volume-weighted ASP for each covered HCPCS
code. When calculating these volume-weighted ASPs, CMS includes only NDCs with ASP
submissions that are deemed valid.

As of June 2009, CMS had established prices for 524 HCPCS codes based on the ASP
reimbursement methodology mandated by section 1847A(b)(6) of the Act. Reimbursement
amounts for the 524 HCPCS codes were based on ASP data for 3,335 NDCs.


13
   OIG is currently preparing an annual overview of ASPs and AMPs for 2008, which will be released later in 2009.
14
   OEI-03-08-00450, December 2008.
15
   OEI-03-07-00140, July 2007, and OEI-03-08-00450, December 2008.



OEI-03-09-00490                                    Comparison of First-Quarter 2009 ASPs and AMPs
Page 6 – Charlene Frizzera


Analysis of Average Manufacturer Price Data From the First Quarter of 2009
To ensure that the broadest range of drug codes is subject to OIG’s pricing comparisons, we
divided HCPCS codes into the following three groups:

       (1) HCPCS codes with AMP data for every NDC that CMS used in its calculation of
           volume-weighted ASPs,

       (2) HCPCS codes with AMP data for only some of the NDCs that CMS used in its
           calculation of volume-weighted ASPs, and

       (3) HCPCS codes with no AMP data for any of the NDCs that CMS used in its
           calculation of volume-weighted ASPs.

As previously noted, the AMP for each NDC is reported for the lowest identifiable quantity of
the drug contained in that NDC (e.g., 1 milliliter, 1 tablet, 1 capsule). In contrast, the ASP is
reported for the entire amount of the drug contained in the NDC (e.g., for 50 milliliters, for
100 tablets). To ensure that the AMP would be comparable to the ASP, it was necessary to
convert the AMP for each NDC so that it represented the total amount of the drug contained in
that NDC.

To calculate “converted AMPs” for NDCs in the first and second groups, we multiplied the AMP
by the total amount of the drug contained in each NDC, as identified by sources, such as the
CMS crosswalk file, manufacturer Web sites, the “Red Book,” and the Food and Drug
Administration’s NDC directory. For certain NDCs, we were unable to successfully identify the
amount of the drug reflected by the ASP and therefore could not calculate a converted AMP.
Because of these unsuccessful AMP conversions, a total of 10 HCPCS codes were removed from
our analysis.

Using NDCs with successful AMP conversions, we then calculated a volume-weighted AMP for
each of the corresponding HCPCS codes, consistent with CMS’s methodology for calculating
volume-weighted ASPs. Appendix C provides a more detailed description of the methods we
used to both convert AMPs and calculate volume-weighted AMPs. Table 1 provides the final
number of HCPCS codes and NDCs included in our analysis after we removed NDCs with either
no AMP data or unsuccessful AMP conversions.




OEI-03-09-00490                             Comparison of First-Quarter 2009 ASPs and AMPs
Page 7 – Charlene Frizzera


Table 1: Number of Drug Codes and NDCs Included in OIG’s Pricing Comparison
                                                                                Number of           Number of
 Availability of AMP Data for HCPCS Code
                                                                             HCPCS Codes               NDCs

 Complete AMP Data                                                                      360              1,635

 Partial AMP Data                                                                        93                893

 No AMP Data                                                                             61                249

Source: OIG analysis of first-quarter 2009 ASP and AMP data, 2009.


Comparing First-Quarter 2009 Volume-Weighted ASPs to Volume-Weighted AMPs
For each of the HCPCS codes included in our study, we compared the volume-weighted ASP
and AMP and determined whether the ASP for the code exceeded the AMP by at least
5 percent.

For those HCPCS codes that met or exceeded the 5-percent threshold, we reviewed the
associated NDCs to verify the accuracy of the billing unit information. According to our review,
NDCs for five codes had billing unit information in CMS’s crosswalk file that may not have
accurately reflected the number of billing units actually contained in the NDC. Because
volume-weighted ASPs and AMPs are calculated using this billing unit information, we could
not be certain that the results for these codes were correct. Therefore, we did not consider these
five HCPCS codes as having met the 5-percent threshold.

For the remaining HCPCS codes, we then estimated the monetary impact of lowering
reimbursement to 103 percent of the AMP. 16 For each of the HCPCS codes that met the
5-percent threshold, we calculated 103 percent of the volume-weighted AMP and subtracted this
amount from the third-quarter 2009 reimbursement amount for the HCPCS code, which is equal
to 106 percent of the volume-weighted ASP. To estimate the financial effect for the third quarter
of 2009, we then multiplied the difference by one-fourth of the number of services that were
allowed by Medicare for each HCPCS code in 2008, as reported in PBAR. 17 This estimate
assumes that the number of services that were allowed by Medicare in 2008 remained consistent
from one quarter to the next and that there were no significant changes in utilization between
2008 and 2009.

Identifying Codes That Would Have Met the 5-Percent Threshold in Previous Quarters
We determined whether codes meeting the 5-percent threshold in the first quarter of 2009 would
have also met the 5-percent threshold in any of the four previous quarters, dating back to the first
quarter of 2008.

16
   Section 1847A(d)(3)(C) of the Act directs the Secretary to replace payment amounts for drugs that meet the
5-percent threshold with the lesser of the widely available market price for the drug (if any) or 103 percent of the
AMP. For the purposes of this study, we used 103 percent of the AMP to estimate the impact of lowering
reimbursement amounts. If widely available market prices had been available for these drugs and lower than
103 percent of the AMP, the savings estimate presented in this report would have been greater.
17
   2008 PBAR data were downloaded on July 8, 2009.



OEI-03-09-00490                                         Comparison of First-Quarter 2009 ASPs and AMPs
Page 8 – Charlene Frizzera


Limitations
We did not verify the accuracy of manufacturer-reported ASP and AMP data, nor did we verify
the underlying methodology used by manufacturers to calculate ASPs and AMPs. Furthermore,
we did not verify the accuracy of CMS’s crosswalk files or examine NDCs that CMS opted to
exclude from its calculation of Part B drug reimbursement amounts.

Manufacturers are required to submit their quarterly ASP and AMP data to CMS 30 days after
the close of the quarter. Our analyses were performed on ASP and AMP data compiled by CMS
soon after that deadline. We did not determine whether manufacturers provided additional or
revised pricing data to CMS at a later date.

Standards
This study was conducted in accordance with the “Quality Standards for Inspections” approved
by the Council of the Inspectors General on Integrity and Efficiency.

RESULTS

Of the 360 Drug Codes With Complete AMP Data, Volume-Weighted ASPs for
14 Exceeded the Volume-Weighted AMPs by at Least 5 Percent
Consistent with sections 1847A(d)(2)(B) and 1847A(d)(3) of the Act, OIG compared ASPs to
AMPs to identify instances in which the ASP for a particular drug exceeded the AMP by a
threshold of 5 percent. In the first quarter of 2009, 14 of the 360 HCPCS codes with complete
AMP data (4 percent) met this 5-percent threshold. A list of the 14 HCPCS codes, including
their descriptions and HCPCS dosage amounts, is presented in Appendix D.

Table 2 describes the extent to which ASPs exceeded AMPs for the 14 HCPCS codes. 18 For
three of the codes, volume-weighted ASPs exceeded volume-weighted AMPs by 20 percent or
more. The ASP for one of these codes was more than double the AMP.

Over three-fourths of the HCPCS codes (11 of 14) also met the 5-percent threshold in one or
more quarters of 2008. For two HCPCS codes (J1364 and Q0169), ASPs exceeded AMPs in
each of the past five quarters, dating back to the first quarter of 2008. An additional two HCPCS
codes met the 5-percent threshold in four of the past five quarters. Table 3 presents a breakdown
of the 11 HCPCS codes that were also eligible for price adjustments in 2008.




18
     Because of the confidential nature of ASP data, the information in the table is presented in ranges.



OEI-03-09-00490                                         Comparison of First-Quarter 2009 ASPs and AMPs
Page 9 – Charlene Frizzera


                            Table 2: Extent to Which ASPs Exceeded AMPs for
                                14 HCPCS Codes With Complete AMP Data
                               Percentage by Which ASP                Number of HCPCS
                               Exceeded AMP                                      Codes
                               5.00%–9.99%                                              8
                               10.00%–19.99%                                           3
                               20.00%–29.99%                                           1
                               30.00%–39.99%                                           0
                               40.00%–49.99%                                           1
                               50.00%–59.99%                                           0
                               60.00%–69.99%                                           0
                               70.00%–79.99%                                           0
                               80.00%–89.99%                                           0
                               90.00%–99.99%                                           0
                               100% and above                                          1
                                 Total                                                 14

                           Source: OIG analysis of first-quarter 2009 ASP and AMP data, 2009.




   Table 3: Eleven HCPCS Codes That Met the 5-Percent Threshold in the First Quarter of 2009
                      and Previous Quarters Using Complete AMP Data
                                                OIG Reports Comparing ASP and AMP
                                        First       Fourth        Third      Second           First
                       HCPCS
                                      Quarter      Quarter      Quarter      Quarter        Quarter
                       Code
                                        2009          2008        2008         2008           2008

                       J1364             X           X            X            X              X
                       Q0169             X           X            X            X              X
                       J8515             X           X            X            X
                       J9225             X           X            X            X
                       J2765             X           X            X
                       J0475             X           X
                       J2597             X           X
                       J7500             X                        X
                       Q0175             X                                    X*
                       Q0176             X                                    X*
                       J1955             X                                                    X
        *These codes previously met the 5-percent threshold during the specified quarters based on partial AMP data.
           Source: OIG analysis of ASP and AMP data from the first quarter of 2009 and all four quarters of 2008.




OEI-03-09-00490                                          Comparison of First-Quarter 2009 ASPs and AMPs
Page 10 – Charlene Frizzera


Lowering reimbursement amounts for the 14 HCPCS codes to 103 percent of the AMPs would
have reduced Medicare allowances by almost $1 million in the third quarter of 2009. Sections
1847A(d)(3)(A) and (B) of the Act provide that the Secretary may disregard the ASP pricing
methodology for a drug with an ASP that exceeds the AMP by at least 5 percent. Pursuant to
section 1847A(d)(3)(C) of the Act, “. . . the Secretary shall, effective as of the next quarter,
substitute for the amount of payment . . . the lesser of (i) the widely available market price . . . (if
any); or (ii) 103 percent of the average manufacturer price . . . .” 19 In this study, we identified
14 HCPCS codes that met the 5-percent threshold specified in the Act. If reimbursement
amounts for these 14 codes had been based on 103 percent of the AMPs during the third quarter
of 2009, we estimate that Medicare expenditures would have been reduced by $939,000 in that
quarter alone. 20 21

Two of the fourteen HCPCS codes accounted for 97 percent of the estimated savings. If the
reimbursement amounts for codes J9225 and J0475 had been based on 103 percent of the AMPs
during the third quarter of 2009, Medicare expenditures would have been reduced by an
estimated $513,000 and $402,000, respectively.

Of the 93 Drug Codes With Partial AMP Data, Volume-Weighted ASPs for
9 Exceeded the Volume-Weighted AMPs by at Least 5 Percent
In addition to examining HCPCS codes with complete AMP data, we examined 93 HCPCS
codes for which only partial AMP data were available. ASPs for 9 of these 93 HCPCS codes
(10 percent) exceeded the AMPs by at least 5 percent in the first quarter of 2009. A list of the
9 HCPCS codes, including their descriptions and HCPCS dosage amounts, is presented in
Appendix E.

Table 4 describes the extent to which ASPs exceeded AMPs for the nine HCPCS codes. 22 For
almost half of the codes (four of nine), volume-weighted ASPs exceeded volume-weighted
AMPs by 20 percent or more. The ASPs for two of these codes were more than double the
AMPs.




19
   For the purposes of this study, we used 103 percent of the AMP to estimate the impact of lowering reimbursement
amounts. If widely available market prices had been available for these drugs and lower than 103 percent of the
AMP, the savings estimates presented in this report would have been greater.
20
   This savings estimate assumes that the number of services that were allowed by Medicare in 2008 remained
consistent from one quarter to the next and that there were no significant changes in utilization between
2008 and 2009.
21
   One of the fourteen HCPCS codes was not listed in the 2008 PBAR file. An additional three HCPCS codes were
listed in the PBAR file but had zero services. As a result, savings estimates were not calculated for these four codes.
22
   The information in the table is presented in ranges because of the confidential nature of ASP data.



OEI-03-09-00490                                      Comparison of First-Quarter 2009 ASPs and AMPs
Page 11 – Charlene Frizzera


                          Table 4: Extent to Which ASPs Exceeded AMPs for
                              Nine HCPCS Codes With Partial AMP Data
                                Percentage by Which ASP               Number of HCPCS
                                Exceeded AMP                                     Codes
                                5.00%–9.99%                                             2
                                10.00%–19.99%                                           3
                                20.00%–29.99%                                           0
                                30.00%–39.99%                                           0
                                40.00%–49.99%                                           0
                                50.00%–59.99%                                           0
                                60.00%–69.99%                                           0
                                70.00%–79.99%                                           2
                                80.00%–89.99%                                           0
                                90.00%–99.99%                                           0
                                100% and above                                          2
                                   Total                                                9

                         Source: OIG analysis of first-quarter 2009 ASP and AMP data, 2009.


All nine of the HCPCS codes with partial AMP data also met the 5-percent threshold in one or
more quarters of 2008. For three HCPCS codes (J0560, J1190, and J2310), ASPs exceeded
AMPs in each of the past five quarters, dating back to the beginning of 2008. Another two
HCPCS codes met the 5-percent threshold in four of the past five quarters. Table 5 presents a
breakdown of the nine HCPCS codes that were also eligible for price adjustments in 2008.

    Table 5: Nine HCPCS Codes That Met the 5-Percent Threshold in the First Quarter of 2009
                       and Previous Quarters Using Partial AMP Data

                                              OIG Reports Comparing ASP and AMP

                                      First        Fourth        Third      Second            First
                    HCPCS           Quarter       Quarter      Quarter      Quarter         Quarter
                    Code              2009           2008        2008          2008           2008
                    J0560            X              X           X             X              X
                    J1190             X             X            X            X              X
                    J2310             X             X            X            X              X
                    J1642             X             X            X            X
                    J0170             X             X            X                           X
                    Q9965             X             X            X
                    Q9966             X             X            X
                    J7506             X                          X            X
                    Q9967             X             X
           Note: All of these codes met the 5-percent threshold during 2008 using partial AMP data.
          Source: OIG analysis of ASP and AMP data from the first quarter of 2009 and all four quarters of 2008.




OEI-03-09-00490                                         Comparison of First-Quarter 2009 ASPs and AMPs
Page 12 – Charlene Frizzera


Lowering reimbursement amounts for the nine HCPCS codes to 103 percent of the AMPs would
have reduced Medicare allowances by an estimated $2.8 million in the third quarter of 2009. 23 24
Two of the nine HCPCS codes accounted for over 80 percent of the $2.8 million. If the
reimbursement amounts for codes Q9965 and Q9967 had been based on 103 percent of the AMPs
during the third quarter of 2009, Medicare expenditures would have been reduced by an estimated
$1.7 million and $591,000, respectively.

Pricing Comparisons Could Not Be Performed on 61 Drug Codes Because No AMP Data
Were Available
For 61 HCPCS codes, OIG could not compare ASPs and AMPs because there were no AMP data
for any of the 249 NDCs that CMS used when calculating drug reimbursement amounts for these
codes. In 2008, Medicare allowances for these 61 codes totaled $251 million. 25

Almost one-fifth of NDCs without AMP data belonged to manufacturers with Medicaid drug
rebate agreements. 26 Manufacturers for 17 percent of the NDCs without AMP data (43 of 249)
participated in the Medicaid drug rebate program as of the first quarter of 2009 and were
therefore generally required to submit AMP data for their covered outpatient drugs. 27 28 Almost
45 percent of these 43 NDCs belonged to only two manufacturers.

Manufacturers for the remaining 206 of 249 NDCs did not participate in the Medicaid drug
rebate program and therefore were not required to submit AMP data.

CONCLUSION

To monitor Medicare reimbursement amounts based on ASPs and consistent with sections
1847A(d)(2)(B) and 1847A(d)(3) of the Act, OIG compared ASPs and AMPs to identify
instances in which the ASP for a particular drug exceeded the AMP by at least 5 percent. This is
OIG’s 13th report comparing ASPs and AMPs, and it examines HCPCS codes with AMP data for
every NDC that CMS used to establish reimbursement amounts, as well as HCPCS codes with
only partial AMP data.

23
   For the purposes of this study, we used 103 percent of the AMP to estimate the impact of lowering reimbursement
amounts. If widely available market prices had been available for these drugs and had been lower than 103 percent
of the AMP, the savings estimates presented in this report would have been greater.
24
   This savings estimate assumes that the number of services that were allowed by Medicare in 2008 remained
consistent from one quarter to the next and that there were no significant changes in utilization between
2008 and 2009.
25
   Of the 61 HCPCS codes with no associated AMP data, 15 were not listed in the 2008 PBAR file. As a result,
these codes were not included in the total Medicare allowances for the year.
26
   To determine whether a manufacturer participated in the Medicaid drug rebate program, we consulted the list of
participating drug companies posted on CMS’s Web site.
27
   Although manufacturers with rebate agreements are required to submit AMP data for their covered outpatient
drugs, there may be valid reasons why an AMP was not provided for a specific NDC in a given quarter. For
example, a manufacturer may not have been required to submit an AMP if the drug product had been terminated and
there was no drug utilization during the quarter.
28
   These 43 NDCs were crosswalked to 22 HCPCS codes.



OEI-03-09-00490                                    Comparison of First-Quarter 2009 ASPs and AMPs
Page 13 – Charlene Frizzera


In the first quarter of 2009, we identified a total of 23 HCPCS codes that met the threshold for
price adjustment. Of these 23 HCPCS codes, 20 were previously identified by OIG as having
ASPs that exceeded the AMPs by at least 5 percent. Finally, we could not compare ASPs and
AMPs for 61 HCPCS codes because AMP data were not submitted for any of the NDCs that
CMS used to calculate reimbursement. Manufacturers for almost one-fifth of these NDCs had
Medicaid drug rebate agreements and were therefore generally required to submit AMPs. OIG
will continue to work with CMS to evaluate and pursue appropriate actions against those
manufacturers that fail to submit required data.

Some of OIG’s previous reports comparing ASPs and AMPs have contained recommendations,
which we continue to support. 29 We are not making additional recommendations in this report
and, as such, are issuing the report directly in final form. If you have comments or questions
about this report, please provide them within 60 days. Please refer to report number
OEI-03-09-00490 in all correspondence.




29
  For example, OIG, “Comparison of Average Sales Prices and Average Manufacturer Prices: An Overview of
2007,” OEI-03-08-00450, December 2008.



OEI-03-09-00490                                 Comparison of First-Quarter 2009 ASPs and AMPs
Page 14 – Charlene Frizzera


APPENDIX A

The Equation Used by the Centers for Medicare & Medicaid Services To Calculate
Volume-Weighted Average Sales Prices On or After April 1, 2008


A volume-weighted average sales price (ASP) is calculated for the dosage amount associated with
the Healthcare Common Procedure Coding System (HCPCS) code. In the following equation, the
“number of billing units” represents the number of HCPCS code doses that are contained in a
national drug code (NDC).



       Volume-Weighted ASP           Sum of (ASP for NDC * Number of NDCs Sold)
        For Dosage Amount  =
          of HCPCS Code        Sum of (Number of NDCs Sold * Number of Billing Units in NDC)




OEI-03-09-00490                            Comparison of First-Quarter 2009 ASPs and AMPs
Page 15 – Charlene Frizzera


APPENDIX B

Previous Office of Inspector General Reports Comparing Average Sales Prices and Average
Manufacturer Prices


      “Monitoring Medicare Part B Drug Prices: A Comparison of Average Sales Prices to
       Average Manufacturer Prices” (OEI-03-04-00430), April 2006

      “Comparison of Fourth-Quarter 2005 Average Sales Prices to Average Manufacturer
       Prices: Impact on Medicare Reimbursement for Second Quarter 2006”
       (OEI-03-06-00370), July 2006

      “Comparison of Third-Quarter 2006 Average Sales Prices to Average Manufacturer Prices:
       Impact on Medicare Reimbursement for First Quarter 2007” (OEI-03-07-00140), July 2007

      “Comparison of First-Quarter 2007 Average Sales Prices to Average Manufacturer Prices:
       Impact on Medicare Reimbursement for Third Quarter 2007” (OEI-03-07-00530),
       September 2007

      “Comparison of Second-Quarter 2007 Average Sales Prices and Average Manufacturer
       Prices: Impact on Medicare Reimbursement for Fourth Quarter 2007”
       (OEI-03-08-00010), December 2007

      “Comparison of Third-Quarter 2007 Average Sales Prices and Average Manufacturer
       Prices: Impact on Medicare Reimbursement for First Quarter 2008”
       (OEI-03-08-00130), May 2008

      “Comparison of Fourth-Quarter 2007 Average Sales Prices and Average Manufacturer
       Prices: Impact on Medicare Reimbursement for Second Quarter 2008”
       (OEI-03-08-00340), August 2008

      “Comparison of Average Sales Prices and Average Manufacturer Prices: An Overview of
       2007” (OEI-03-08-00450), December 2008

      “Comparison of First-Quarter 2008 Average Sales Prices and Average Manufacturer
       Prices: Impact on Medicare Reimbursement for Third Quarter 2008”
       (OEI-03-08-00530), December 2008




OEI-03-09-00490                          Comparison of First-Quarter 2009 ASPs and AMPs
Page 16 – Charlene Frizzera


   	 “Comparison of Second-Quarter 2008 Average Sales Prices and Average Manufacturer
      Prices: Impact on Medicare Reimbursement for Fourth Quarter 2008”
      (OEI-03-09-00050), February 2009

   	 “Comparison of Third-Quarter 2008 Average Sales Prices and Average Manufacturer
      Prices: Impact on Medicare Reimbursement for First Quarter 2009”
      (OEI-03-09-00150), April 2009

   	 “Comparison of Fourth-Quarter 2008 Average Sales Prices and Average Manufacturer
      Prices: Impact on Medicare Reimbursement for Second Quarter 2009”
      (OEI-03-09-00340), August 2009




OEI-03-09-00490 	                      Comparison of First-Quarter 2009 ASPs and AMPs
Page 17 – Charlene Frizzera


APPENDIX C

Detailed Methodology for Converting and Volume-Weighting Average Manufacturer
Prices for the First Quarter of 2009

Healthcare Common Procedure Coding System codes with complete average manufacturer price
data. Of the 524 Healthcare Common Procedure Coding System (HCPCS) codes with
reimbursement amounts based on average sales prices (ASP), 369 had average manufacturer
prices (AMP) for every national drug code (NDC) that the Centers for Medicare & Medicaid
Services (CMS) used to calculate volume-weighted ASPs. These 369 HCPCS codes represented
1,733 NDCs. For 13 NDCs, we could not successfully identify the amount of the drug reflected
by the ASP and therefore could not calculate a converted AMP. These 13 NDCs were
crosswalked to nine HCPCS codes. We did not include these nine HCPCS codes (98 NDCs) in
our final analysis.

Using the converted AMPs for the remaining 1,635 NDCs, we then calculated a volume-
weighted AMP for each of the remaining 360 HCPCS codes consistent with CMS’s
methodology for calculating volume-weighted ASPs.

HCPCS codes with partial AMP data. There were 94 HCPCS codes with AMP data for only
some of the NDCs that CMS used in its calculation of volume-weighted ASPs. These
94 HCPCS codes represented a total of 1,353 NDCs. AMP data were either missing or
unavailable for 451 of these NDCs, which were then excluded from our calculation of
volume-weighted AMPs. 30

We calculated converted AMPs for each of the remaining 902 NDCs. For nine of the
nine hundred and two NDCs, we could not successfully identify the amount of the drug reflected
by the ASP and therefore could not calculate a converted AMP. We removed these 9 NDCs
from our analysis. 31 As a result, one HCPCS code no longer had any NDCs with AMP data.
Therefore, this HCPCS code was removed from our analysis.

Using the converted AMPs for the remaining 893 NDCs, we then calculated a
volume-weighted AMP for each of the remaining 93 HCPCS codes consistent with CMS’s
methodology for calculating volume-weighted ASPs.




30
   Although AMP data for these 451 NDCs were excluded from our calculation of volume-weighted AMPs, the
corresponding ASPs were not excluded from the volume-weighted ASPs as determined by CMS.
Volume-weighted ASPs remained the same, regardless of the availability of AMP data.
31
   Although we removed NDCs with problematic AMP conversions, we did not remove the corresponding HCPCS
codes, provided that other NDCs for those drug codes had usable AMP data. This differs from our analysis of
HCPCS codes with complete AMP data, in which we removed not only the NDCs with problematic AMP
conversions, but also the corresponding HCPCS codes.



OEI-03-09-00490                                 Comparison of First-Quarter 2009 ASPs and AMPs
Page 18 – Charlene Frizzera


HCPCS codes with no AMP data. For 61 HCPCS codes, there were no AMP data for any of the
NDCs that CMS used in its calculation of volume-weighted ASPs. These 61 HCPCS codes
represented 249 NDCs.




OEI-03-09-00490                        Comparison of First-Quarter 2009 ASPs and AMPs
Page 19 – Charlene Frizzera


APPENDIX D

Fourteen Drug Codes With Complete Average Manufacturer Price Data That Met the
5-Percent Threshold in the First Quarter of 2009


          Drug
          Code                                                    Short Description          Drug Code Dosage
          J0475                                                     Baclofen injection                     10 mg

          J1230                                                  Methadone injection                       10 mg

          J1364                                                  Erythro lactobionate                     500 mg

          J1655                                                    Tinzaparin sodium                   1,000 units

          J1955                                                Levocarnitine injection                        1g

          J2597                                       Desmopressin acetate injection                       1 mcg

          J2765                                         Metoclopramide HCl injection                       10 mg

          J3470                                               Hyaluronidase injection                   150 units

          J7500                                                     Azathioprine, oral                     50 mg

          J8515                                                     Cabergoline, oral                    0.25 mg

          J9225                                                      Histrelin implant                     50 mg

          Q0169                                               Promethazine HCl, oral                     12.5 mg

          Q0175                                                   Perphenazine, oral                         4 mg

          Q0176                                                   Perphenazine, oral                         8 mg

         Source: Office of Inspector General analysis of first-quarter 2009 average sales price and average manufacturer price
         data, 2009.




OEI-03-09-00490                                        Comparison of First-Quarter 2009 ASPs and AMPs
Page 20 – Charlene Frizzera


APPENDIX E

Nine Drug Codes With Partial Average Manufacturer Price Data That Met the
5-Percent Threshold in the First Quarter of 2009


          Drug
          Code                                                     Short Description         Drug Code Dosage
          J0170                                         Adrenalin epinephrin injection                       1 ml

          J0560                                       Penicillin g benzathine injection             600,000 units

          J1190                                            Dexrazoxane HCl injection                      250 mg

          J1642                                              Heparin sodium injection                     10 units

          J2310                                      Naloxone hydrochloride injection                        1 mg

          J7506                                                      Prednisone, oral                        5 mg

          Q9965                 Low osmolar contrast material,100-199 mg/mL iodine                           1 ml

          Q9966                 Low osmolar contrast material, 200-299 mg/mL iodine                          1 ml

          Q9967                 Low osmolar contrast material, 300-399 mg/mL iodine                          1 ml

         Source: Office of Inspector General analysis of first-quarter 2009 average sales price and average manufacturer price
         data, 2009.




OEI-03-09-00490                                        Comparison of First-Quarter 2009 ASPs and AMPs
